Inspection Report No. OIG-INS-19-01-02: Combination Door Lock Inspection
Inspection Report No. OIG-INS-19-01-02 Combination Door Lock Inspection
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
August 24, 2001
To: Eugene Lott, Jr.
Chief, Security Branch
Angela F. Crawford
Chief, Procurement and Facilities Branch
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-19-01-02: Combination Door Lock Inspection
We initiated this inspection on August 6, 2001 to evaluate whether office, restroom, and stairwell door locks that require a combination to unlock functioned properly. We found that four office doors, nearly half of the restroom doors, and one stairwell door did not function properly. We also found that stairwell doors were propped open, which was attributed by the Chief, Security Branch, to be for ease of access.
SCOPE
On August 6, 2001, we inspected the doors with combination locks on the Headquarters' office spaces to determine if the combination locks were operational and if they were being used properly. Between August 6 and August 10, 2001, we inspected the restroom and stairwell doors to determine if the combination locks were operational and if they were being used properly. We obtained combination codes for the restrooms and stairwells at a new employee orientation session. We interviewed personnel in the Security Branch and the Procurement and Facilities Branch. We reviewed the Agreement between the General Counsel and the National Labor Relations Board Union (NLRBU) and the Headquarters' lock plan.
BACKGROUND
The Agency is responsible for the safety and physical well being of its employees at the workplace. The Agreement between the General Counsel and the NLRBU requires that the Agency develop a lock plan to control access to the Agency's office spaces. According to the Chief, Security Branch, a plan was developed when the Agency moved to its current location in 1993. The plan requires combination locks on the Headquarters' restrooms and stairwells. This plan also requires combination locks for office doors that do not open into a reception area.
OFFICES
On August 6, 2001, we inspected office doors with a combination lock to determine if they were properly closed and locked. We also tested the combination locks with the code of "123" to determine if the lock was operating correctly. We found that 14 offices in Headquarters had combination door locks. These combination locks are mechanical and are part of the door handle mechanism. The offices with combination door locks were located on floors 8, 9, and 10. The Security Branch is responsible for maintaining the combination locks. To accomplish this responsibility, the Security Branch relies upon Agency personnel to report malfunctions. We found one door that was not properly closed and could not be locked and three doors that opened without entering a combination.
RESTROOMS
Between August 6 and August 10, 2001, we inspected restroom doors at the Headquarters as described above for the offices, and we also used the correct access code to determine if the combination locks were operational. We found 22 restrooms at Headquarters located on floors 6, 7, 8, 9, 10, and 11. The doors had combination locks that used an electronic keypad located on the wall next to the door. The Procurement and Facilities Branch is responsible for maintaining the restroom locks. To accomplish this responsibility, the Procurement and Facilities Branch relies upon Agency personnel to report malfunctions. We found that roughly half of the restroom doors were properly closed. We also found four to six doors a day that were shut but not locked due to structural problems with locks, and one door that would lock but had no handle. The chart below details our findings:
Date/Type Locked Propped Open Would Not Lock
08/06/01 Male
5
Not Noted
Not Noted
08/06/01 Female
8
Not Noted
Not Noted
08/07/01 Male
6
4
1
08/07/01 Female
7
1
3
08/08/01 Male
5
4
2
08/08/01 Female
8
0
3
08/09/01 Male
7
1
3
08/09/01 Female
8
0
3
08/10/01 Male
4
5
2
08/10/01 Female
6
3
4
STAIRWELLS
We inspected the stairwells using the same procedures as described above for the restrooms. We found 22 stairwell doors at Headquarters that had combination locks. These locks use an electronic keypad that is located on the wall next to the door. The stairwell doors with combination locks were located on floors 6, 7, 8, 9, 10, and 11. The Procurement and Facilities Branch is responsible for maintaining the stairwell locks. To accomplish this responsibility, the Procurement and Facilities Branch relies upon Agency personnel to report malfunctions. We found that most of the stairwell doors were properly closed. We found doors propped open everyday, primarily between floors 8 and 9. One of the combination locks did not work properly. The chart below details our findings:
Date/Type Locked Propped Open Would Not Lock
08/06/01
19
Not Noted
Not Noted
8/07/01
17
5
0
08/08/01
20
2
0
08/09/01
20
1
1
08/10/01
17
5
1
SUGGESTIONS
We forwarded a detailed summary of our findings to the Security Branch and the Procurement and Facilities Branch. We suggest that each branch take appropriate steps to fix the locks that are not operating correctly or change the lock plan.
This review was done in accordance with the Quality Standards for Inspections issued by the President's Council on Integrity and Efficiency.